0

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 40 bound
copies and 1 unbound copy of the foregoing Brief of
Massachusetts, the District of Columbia, California,
Colorado, Delaware, Hawai'i, Illinois, Iowa, Maine,
Maryland, Michigan, Minnesota, Nevada, New
Hampshire, New Jersey, New Mexico, New York,
North Carolina, Oregon, Pennsylvania, Rhode Island,
Vermont, Washington, and the Wisconsin Attorney
General as Amici Curiae in Support of Neither Party
in 20-255, Mahanoy Area School District v. B. L., a
Minor, By and Through Her Father, Lawrence Levy
and Her Mother, Betty Lou Levy, were sent via Next
Day Service to the U.S. Supreme Court, and 3 copies
were sent via Next Day Service and e-mail to the
following parties listed below, this 1st day of March,
2021:
Lisa Schiavo Blatt
Williams & Connolly LLP
725 12th Street, NW
Washington, DC 20005
(202) 434-5050
lblatt@wc.com

Counsel for Petitioner

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington , DC 20005

Witold J. Walczak
ACLU of Pennsylvania
P.O. Box 23058
Pittsburgh, PA 15222
(412) 681-7864
vwalczak@aclupa.org
Counsel for Respondents
Maura Healey
Attorney General of Massachusetts
Joshua Olszewski-Jubelirer
Abrisham Eshghi
Douglas Martland *
Assistant Attorneys General
One Ashburton Place
Boston, MA 02108
(617) 963-2062
douglas.martland@mass.gov
*Counsel of Record
Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on March 1, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date :

fvu<-Uuh, 11 O-Od/
~
IL ~

Notary Public
[seal]

JOHN D. GALLAGHER
t Jotary

Public, State of Ohio

My Commission Expires
FL{I uGry 14, 2023

